No. 20-5886

3n Mit
rent Oland of tilt Unita GCB
Lynn Smith
PETITIONER
v.
Andrea Dobin, et al
RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

SUPPLEMENTAL BRIEF OF THE PETITIONER

To the Chief Justices of the Supreme Court of the United States and
Circuit Justice for the Third Circuit:
Petitioner hereby submits a supplemental brief for a writ of
certiorari to review appeal from 3-18-cv-14955 Final Judgment and Order
of the Court of Appeals Third Circuit.

Lynn Smith
294A Malvern Court East
Lakewood, New Jersey 08701
(732) 363-4451
lzsmith@optonline.net

TABLE OF CONTENTS

TABLE OF CONTENTS

i

SUPPLEMENTAL BRIEF

1

The General Reason for Supplemental Brief

1

I Do Not Need to Overturn the Final Judgment in State
Court to Covert from Chapter 7 to Chapter
13

3

The Specific Reason for The Supplemental
Brief

5

The Criminal Activity that the AGNJ is Fraudulently
Concealing

7

The Unimpeachable Evidence
Requested Relief
CONCLUSION

17
22

23

APPENDIX

la
DAG States Amount Invested by "Victim"
2a
Money Lent and Invested by "Victim"
3a
WESI Investment Letter to "Victim"
Letter & Memo by "Victim" to Lawyer and Friend
4a
Reason for "Victim" to Invest in WESI
10a
"Victim" Never Heard of Digital Gas
11a
AGNJ "Whistleblower" Victimized "Victim" and His 13a
Family

1
SUPPLEMENTAL BRIEF
Pursuant to Rule 15.8, Petitioner files this brief to
apprise the Court of relevant information that became available
subsequent to the filing of the Petition. I am including a part of
this evidence in the Appendix sufficient for this Court to rule for
this Petition. The rest of the evidence I am holding back for an
adversary suit against the Attorney General of New Jersey.
The Questions Presented section in our Petition presents a
classic case of a Creditor, a Bankruptcy Judge, and a Panel
Trustee all violating this Court's rulings and admonitions not to
abuse the Rooker-Feldman Doctrine with respect to a Debtor's
rightful and sole objection to excessive dollar claims against their
estates, as opposed to an objection that seeks to overturn state
court orders or final judgments.
In Exxon Mobil Corp. v. Saudi Basic Industries Corp., 544
U.S. 280 (2005), Justice Ginsburg, writing for a unanimous Court,
reversed the Third Circuit's decision and remanded that case.
After a review of the holdings in the original Rooker and Feldman
cases, she then held that the Rooker-Feldman doctrine:
"is confined to cases of the kind from which the
doctrine acquired its name: cases brought by statecourt losers complaining of injuries caused by statecourt judgments rendered before the district court
proceedings commenced and inviting district court
review and rejection of those judgments."
The Third Circuit Court of Appeals itself specifically defined
the limits of the Rooker-Feldman Doctrine when it ruled in In
Re Phila. Entm't & Dev. Partners LP), 879 F.3d 492 (3d Cir.
2018). Relying on Exxon Mobil, the court noted that the doctrine
applies when four requirements are met:

2
the federal plaintiff lost in state court,
the plaintiff complains of injuries caused by
the state court judgment,
that judgment issued before the federal suit
was filed, and
the plaintiff invites the district court to
review and reject the state court judgment.
The Third Circuit found that the fourth requirement was not
met, and they ruled in favor of the Trustee in Philadelphia
Entertainment.
Unfortunately, Lynn Smith is not an oil company, nor a
casino, and certainly not a Trustee.
I am merely a Pro Se Litigant seeking the same general
protection from the overextension of the Rooker-Feldman
Doctrine that the Third Circuit extended when it ruled that the
Trustee was not seeking to overturn a state court judgment.
I am not seeking to overturn a state court judgment.
I filed my Chapter 13 Petition in December 2017 and sought
to gain approval of a plan to pay my mortgage bank off over
several years. Instead, a conflicted judge and trustee ignored
evidence, law, this Court's precedent, Third Circuit precedent,
and $679,000 in cash to keep me in Chapter 7 and steal my home
of 30-years, the only home my innocent children ever knew.
I will not burden this Court with the sordid details. Instead,
I will do something far simpler and direct. In the Appendix are
documents that unimpeachably prove that the Attorney General
of New Jersey ("AGNJ") has defrauded Lynn Smith and lower
federal courts for the last 3-years by filing a false claim amount
against me for $809,237. In this case, abuse of Rooker-Feldman is
compounded by malicious fraudulent concealment. Please note:

3
"Whoever knowingly and fraudulently presents any
false claim for proof against the estate of a debtor or
uses any such claim in any case under title 11,
personally, or by agent, proxy, or attorney, or as
agent, proxy, or attorney, . . . shall be fined not more
than $5,000 or imprisoned not more than five years,
or both."
A.

The General Reason for the Supplemental Brief

I am herein filing with this Court several documents that
unimpeachably prove that the Attorney General of New Jersey
has defrauded Lynn Smith and lower federal courts for the last 3years by fraudulently concealing that I never "unjustly enriched"
myself from Alfred Kryspin's $809,237 investment in Digital Gas,
a natural resource and energy company. The AGNJ knows that
their claim is excessive and should be reduced "significantly".
In Bankruptcy Court, when I objected to their claim and filed
a motion requesting that the AGNJ submit "Additional
Documents" to verify who invested the $809,237 and when.
Instead of responding with the information, they claimed that I
was attempting to overturn a final judgment in state court. The
judge and trustee agreed with them, refusing my simple request
to name the investor, the date he/she invested, and the amount.
I even pledged to the Court that if it ordered the AGNJ to
turn over the Additional Documents, and the documents proved
that I unjustly enriched myself with $809,237 invested in Digital
Gas by Mr. Kryspin, that I would drop all appeals and complaints,
and not contest the sale of my home. It is now two years later and,
during that entire time, the AGNJ, the bankruptcy judge, and the
panel trustee still claim that I am only trying to overturn a final
judgment in state court.

4
B. I Do Not Need to Overturn the Final Judgment in State
Court to Covert from Chapter 7 to Chapter 13
My primary purpose in objecting to the size of the state's
claim was to establish the fact that without this exaggerated
$809,237 claim my petition should never have been converted
from Chapter 13 to Chapter 7. I wanted to proceed in Chapter 13
and obtain a several year payment plan to retire my debts within
5-years. This righteous request was unlawfully denied.
I even gave the NJAG, the judge, and the trustee the
opportunity to permit me to bring $675,000 of non-debt cash that
I arranged to bring into my estate to accomplish three objectives:
pay off all bona fide creditors;
pay for an attorney to represent me; and
to make repairs to my home to increase its value
After accomplishing those objectives, and with my home
valued at well in excess of $2,000,000, the Court would have then
converted me to a Chapter 11 and permitted an Adversary
Complaint against the Attorney of New Jersey for fraudulent
concealment and criminal negligence since October 10, 2006.
Rather than obstruct justice in Bankruptcy Court, the state could
have defended their claim in that public forum in a jury trial.
Although this would have saved valuable bankruptcy court time,
resources and taxpayer money, the judge and trustee chose to
block this alternate path to resolution by citing the RookerFeldman Doctrine. I filed a formal objection to the $809,237 claim
and several fair and reasonable motions to make any of the above
work, but all were rejected because the bankruptcy judge and
panel trustee agreed with the NJAG that all I was doing was
violating the Rooker-Feldman Doctrine.

5
Why would I seek to overturn a final judgment in state court
when all I needed to do was make sure that the state turned over
the Additional Documents that would prove that the amount of
claim should be reduced significantly, thus permitting me to
convert back to Chapter 13 or Chapter 11?
The judge and trustee even ignored transcripts from the
state court trial that would have led any reasonable judge or
trustee to conclude that the size of the claim should have been
reduced significantly, but they ignored both the intent of
Congress and the advice of the United States Supreme Court.
C. The Specific Reasons for the Supplemental Brief
Since my I filed my Petition in July, my husband and I found
new information while going through the second half of 300
plastic bins within which most of the items in our home were
placed up to the day we were evicted from our home by U.S.
Marshals on September 13, 2018.1
I present the new evidence first to establish before this Court
that I never unjustly enriched myself with Alfred Kryspin's
$809,237 investment in Digital Gas.
The Attorney General of New Jersey has known this since
the day the complaint against me was filed. They knew that I did
not enrich myself with Mr. Kryspin's investment in Digital Gas
for one simple reason:
Alfred Kryspin never invested in Digital Gas. In fact, he did
not know Digital Gas even existed until approximately 18-months
after investing in another company, Wickline Energy Systems.
I Approximately 20% of our personal items had to be abandoned and were
never returned as promised. I filed a motion to have movers obtain the
remaining items, but it was denied.

6
The AGNJ has lied to every federal court they have been in for
going on 10-years now to fraudulently conceal their misconduct,
criminal negligence, and corruption in administrating the 2006
Digital Gas complaint. Alfred Kryspin's own records (Appendix A)
show that he only invested $115,500 in Wickline Energy Systems.
Other than that, he loaned my husband approximately $67,778.26.
He included an additional $30,000 on his list after he asked my
husband to take his car that he could not drive, but my husband
returned it because it needed extensive repairs. His total of
$213,278.26 should have been $183,278.26. That was it.2
With respect to me, the following is true:
Kryspin's $115,500 investment in WEST went to
Wickline, it was not something I "unjustly
enriched" myself with.
Kryspin's $67,778.26 loan for repairs to my home
permitted my children and I to move back into our
home, but it was not an "unjust enrichment" from
a private investment in Digital Gas.
3. $67,778.26 is not $809,237.
When Wickline died on December 26, 2003, the company died
with him. On that day, Kryspin had no idea that Digital Gas even
existed. Yet, the AGNJ has continued to fraudulently represent in
federal court after federal court that Kryspin made an $809,237
investment in Digital Gas that I "unjustly enriched myself from. If
anything, my children, and I benefitted from the $67.778.26 loan.
The AGNJ, the judge, and the trustee have used the RookerFeldman Doctrine to conceal this unimpeachable fact.
Kryspin also arranged a $250,000 loan which was used to pay
Edward Wickline and related bills and expenses.

2

7
I would like to reiterate that the only dollar number that I can
be remotely connected to is $67,778.26 since I owned the home that
was being repaired. Even with that being the case, when the loans
were made, Alfred Kryspin had no idea that Digital Gas existed.
My objection to the size of the state's claim and request for
Additional Documents was appropriate and consistent with
Congressional intent that in Bankruptcy Court debtor's estates be
protected from fraudulent and/or excessive claims by creditors.
D. The Criminal Activity that the AGNJ is Fraudulently
Concealing
Separate from the issue that the Rooker-Feldman Doctrine was
overextended is what the AGNJ is fraudulently concealing. I would
now like to address issue of how and why the AGNJ was so wrong, so
"off" in their calculation of $809,237.
The justices of this Court know what DAG's often do in state
court in these type cases. Spouses of defendants are charged with
"unjust enrichment" to encumber their home and make sure that
they cannot refinance their mortgage or get a home equity loan to
retain an attorney. In this case, there might be another explanation.
On September 29, 2006, my husband told the lawyer for the
Community States Bank in Ankeny, Iowa that he would not bail out
two rogue consultants, Barry Levinson, and Ron Reckinger, from
bank fraud charges for illegally using Digital Gas restricted shares
to obtain up to $1.5 million in bank loans.3 Facing criminal charges,
Levinson called his old girlfriend, Jacqueline Greenberg Vogt, a partner
at Greenberg Traurig, to create the Digital Gas is a scam narrative.
Levinson had asked my husband to divert assets from the company. He
offered him $115 million from a proposed $280 million sale. My husband
refused and dismissed him. Subsequently, he and Reckinger decided to raid
the company for its assets. The bank loans were for their working capital.
3

8
When the raid on my home occurred a day after the complaint
was filed on October 10th, the agents were looking for $10 million in
cash. Levinson and Reckinger told the AGNJ that my husband had
hidden this amount of cash in our house. After 8-hours, they found
my daughter's pink purse with $300 in Silver Certificates.
Ronald Reckinger' s contribution to the narrative was that I
had "unjustly enriched" myself with Alfred Kryspin's $809,237
private investment in Digital Gas. So, it is entirely possible that the
young DAG prosecuting his first case, impressed by Ms. Vogt and
having to file the complaint on one week's notice, simply accepted Reckinger's
word that Kryspin invested $809,237 in Digital Gas without doing a proper due
diligence. Rumeal Robinson went to jail for 6.5 years, but Levinson
and Reckinger avoided the criminal charges they deserved.
Once my husband made all of this transparent to the DAG and
directly to Attorney General Stuart Rabner, their response was to
ignore the exculpatory evidence, violate SEC full material disclosure
laws by failing to make a retractive press release to Digital Gas
investors, and continue to falsely claim that I unjustly enriched
myself with a $809,237 investment in Digital Gas that Alfred
Kryspin never made.
Judge Michael B. Kaplan and Trustee Andrea Dobin know that
the NJAG has been fraudulently concealing these facts and have
aided and abetted them by blocking my request for Additional
Documents by citing the Rooker-Feldman Doctrine. This
Supplemental Brief provides further evidence to this Court to of a 1)
a serious abuse of the Rooker-Feldman Doctrine, and 2) fraudulent
concealment by a creditor in Bankruptcy Court. The new evidence
presented in the Appendix proves without question that the
overextension of the Rooker-Feldman Doctrine is not an error, but a
legal device to cover-up official misconduct and criminality.

9
This Court has a special opportunity to send a message to state
governments that an objection to the size of their claims in
Bankruptcy Court, and a debtor's request for Additional Documents,
is not a request for a new trial.
I want to reduce the size of a clearly overstated claim.
What complicates my righteous objection to the
exaggerated" claim is that the Additional Documents I requested
will surely expose the official corruption, criminal negligence, and
criminal acts that occurred in the Office of the Attorney General
of the State of New Jersey. Hopefully, that should be of no
concern to this Court.
In the end, I wear the final judgment in state court proudly.
The final judgment I was forced to accept is an enigma:
- In one sense it is the absence of presence of justice.
- In another sense it is the mark inflicted by the
conjoinment of private and official criminality.
Unfair, but my intent when I objected to the state's claim was
to reduce the amount of the false claim and get back to either
Chapter 11 or Chapter 13.
As much as my daughters and I have suffered unreasonable
damage at the hands of the AGNJ, there are others that Chief
Justice Rabner continued to ignore against all evidence, year after
year, death after death, divorce after divorce, while children and
grandchildren were denied the benefits of what the AGNJ
permitted to be stolen.
The real victims are 200 entirely innocent families that were
stripped of their 50% ownership in $617 million in cash and $5
Billion in natural resources assets.

10
Why?
Because Attorney General Rabner chose career advancement
to Chief Justice of the New Jersey Supreme Court rather than
over honoring his respective Codes of Conduct as AG and judge.
Because Attorney General Rabner did not want to risk the
public perception that Jacqueline Greenberg Vogt of Greenberg
Traurig had exercised influence over him to quickly file a
complaint against an innocent company without a modicum of due
diligence to spare her clients the 6.5 year sentence that a duped
Rumeal Robinson ended up suffering. 4
Because Attorney General after Attorney General have
fraudulently concealed the above evidence and official misconduct
from federal judges.
The NJAG deployed the Rooker-Feldman Doctrine to avoid
disclosing to the federal court system that the person they relied
upon for their $809,237 claim, Ron Reckinger, is the same "Ron"
referenced in this Grand Jury filing by the United States of
America:
[Note: Rumeal Robinson was also a victim of Barry Levinson, Ron
Reckinger, and attorney Thomas Throne who all should have been indicted
for using restricted Digital Gas shares to obtain in excess of $1 million in
loans, based on the payment of a $100,000 bribe to the bank officer, and a
promise by Levinson, Reckinger, and Throne of another cash $495,000
payment.
4

Please carefully review this link:

https://sc.cnbcfm.com/applications/cnbc.comfresourcesteditorialfiles/201
7/03/20fRobinson%200%20a1%20Indictment.pdf
and the information contained and the next few pages.]

11

RECEIVED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA

AN 27 2(109
01.6*U.0,05Treer caw

SOURIERN UarArCT OF *WA

UNITED STATES OF AMERICA,
CRIMINAL NO. 4: 09-cr- I 3 I
Plaintiff.
v.
BRIAN JERMAINEW1LLIAMS,
RUMEAL ROBINSON,
STE2HENIE HODGE,

DIDLCThEItt
18 U.S.C. § 215
18 U.S.C. § 1014
18
§ 1343
I8 U.S.C. § 1344
18 U.S.C. § 1349

Defendantg.
THE GRAND JURY CHARGES:
XNTRODUCTORYALISGATIONS

Note the following findings from the Grand Jury in Iowa.
"Borrower C" is Levinson and Reckinger operating as Fairway Energy,
LLC. "Attorney A" is attorney Thomas. Throne of Sheridan, Wyoming:
MILO s1/outitiovilibet 10* 2005; defendant WILLIAMS entered an agreement
still Wawa C

Attorney A, whose identities are known to the Grand Jury. Borrower C and

Attorney A held themselves out as the thief Executive Officer and Attorney, respectively, for a
company called Fairway Energy, LLC,
The November Jo, 2145 agreement called for defendant WILLIAMS to authorize
a loan of $495,000 from Community State Murk to Fairway Energy, LLC. In exchange, Fairway
Energy would pay $4954000 to whomever defendant WILLIAMS wanted. The $495,000
payment to whomever defendant WILLIAMS wanted was separate and apart from the repayment
of the $495,000 loan plus interest and fees to Community State Bank,
On or about November 16, 2005, defendant WILLIAMS authorized a loan of
$195,000 from Community State Bank to fairway Energy, LLC.

12
On lir dIllogIF

17,M, deondant WILLIAMS sera an email trvnatIOWer

C invihieh Denali WILLIAMS hketroMed Borrower C.to Vire S241,249 to dem**
ROBVISON'tvermal, SWUM et Conammft State Sank SI 61,934 to Bomim

is

naceard at Community State Hank„ end the Waive 61191,817 to defendtat WILLIAMS'
per-sonal Goo= at Wells Fargo Bank. Collec6vely, these three au te=ts eqn. S45000.
Defendant WILLIAMS end defertthrii ROBBISON nem ,rarreived any pent
from Borrower C or Paliway Fmetpx. On or about Februark 21, 2006, defendant WilLIAMS
received an mei tramBortenver C sierra& among other dings: 'This deal bad to be slowed
deOattn tee owe- the underwriter S1(10,011011tatweterS been 0* fiti
t.-ertniogragged trfingtai.ftd this S100,000 Whifel keep:both deals Ittnidint,.7
On Ma l„ 2006, defendant Wra1AMS turtbottted

101 4 to

BerrowerC. The lean proceeds woe diSburted as ramie.
SIAM Community Stele Bank (oilcan mienation
S44 for two oventiOt rem and
5100„000 to an neemmt In the name cWittdkam See tie the apt N
B.0%, Brneklyo, New York.

If this bank fraud occurred at this time, there would be a
national furor if it were made known that two Black Americans
were sentenced to prison for up to 6.5 years while three White
Americans:
who were the architects of the fraud,
who paid the bank officer $100,000,
who promised him another $495,000,
who promised both men imprisoned untold other
riches from a multi-billion oil & gas property they
stole from Digital Gas, and who reneged on the
payments they promised to the bank to make the
loans "good",

13
...retained Ace Greenberg's daughter, Levinson's old girlfriend, to
get them off scot-free.
Levinson and Reckinger schooled Robinson on how to use his
friends in the scheme — and encouraged him to use his mother's
home to further the interests of Fairway Energy.
In case I have not properly introduced him, Barry Levinson is
the person who urged my husband to sell two Canadian quarries
for their own personal benefit ($115 million for my husband):
"WHY CANNOT I SELL QUARRY #3 TO
RINKER FOR .35 A PERMITTED TON
IMMEDIATELY PLUS A ROYALTY AND
ADDITIONAL FOR FUTURE PERMITTED
TONS. WHILE I KNOW YOU NEED TO CLOSE
A DIGG DEAL FIRST, AS YOU PARTNER, I
DON'T AND WHY WOULD WE NOT WANT TO
IMMEDIATELY PUT $14,000,000 IN OUR
POCKETS AND END OR CASH DILEMMA. I
CANNOT COMPREHEND."
Barry Levinson
Greenberg Traurig client
Summer of 2005
Re: Request to Brian Smith that he
Commit a Federal Crime by Diverting
Cash and Assets from a Registered.
Trading Public Company

...and Levinson is the person taking the advice of the Attorney
General of New Jersey and his staff that you cannot be seen
attempting to seize Billions of Dollars in assets from 201 families
after claiming that the company you are in the process of raiding
is a "scam with no assets". So, he suddenly developed "health
issues", as was falsely reported by Throne to the Wyoming
Bankruptcy Court, at the same time all three faced indictment in
Iowa:

14
FOR T 01V1

0

COMES NOW, S. Thomas Throne, after being duly sworn and upon his oath states and
alleges as follows:
This Affidavit is written as a supplement my prior affidavits in the New Energy
bankruptcy case.
2.

Since ray last,

da,Jit in, this case several events save rtrannpired.

3.
Barry Levinson suffered some health issues and his partimr, Ron Reckinger, has
taken over securing the funding.
4.
The original buyer had represented to us malty times that they were closing
tomorrow has failed to close. Consequently, Mr. Reckinger in conjunction with another
commitant has secured tveo purchasers:
The band offering is being sold in two pans. The consultant has the
contract for the biggest portion of the offering.
We anticipate.he bearing on October 12, 2006 to have the contract and
purchave order for the smaller po tlon...
5.
Both contracts will facilitate the bridge loan in prior hearings. J anticipate
engaging the taidge Ion on October 12, 2006.
6.
Closing on both contracts is TO, which means the funds should be available for
the offering by Friday, October 13, 2006.
JUFFIANT FURTHER SAYETH NOTDAT—ED THTS Ilth DAY OF OCTOBER 2006.
S.

STATE OF WYOMING
COUNTY OF SHERMAN
subscribed end sworn to before are this
Throne.

day

October 2006 by S. Thomas

So, taking good advice, Levinson concealed his rape of Digital
Gas as the AGNJ and 50 state and federal agents descended on
my home seeking the $10 million we "hid in the basement".

15

On June 29, 2007 Rabner was sworn in as Chief Justice and
on June 30, 2007 Reckinger was rewarded with a 50% interest in
Fairway Energy, as the rape of the assets of Digital Gas, 201
families, and Lynn Smith continued:
Atirr We:weary dt 5040)
oltak Oinr.42COM
OftinstD 20054X0R1117201
hmedtekroutt
ID: 26674M44252112
traraLIAIMAN(
AMMITIMENtrillANIITCEIMIWCIIMANMATIM
itfto*Orz,titiMi2
Jr. linpfrlydmi!

VI.....tivrt$Ps•Jr
r,c.,Awndar.ri,m
re04%.1.111kiro
OX•rms6VIMMOiti,

Th,.....reefthedraya,
vas

tigu ea"

tc•

lianmelpOrrAtovew

ATZW."4"
ittAVW
Cep IrOCreE.4"

.rot
44.4

Age
410 11(4

a 4,

AA,"of, fiteleAwoe4j,

Batel
Theitaveincolloristr onsiegtelinsmolatsroft ftvparet*Wriwrprwrdwkwmmv4ta
enestb.g.

178;
_affe.
sma-rotrAfainno

So, Chief Justice Roberts and Justices Breyer, Thomas, Alito,
Gorsuch, Sotomayor, Kagan, and Kavanaugh — this Petition
presents a different and highly dangerous abuse or overextension
of the Rooker-Feldman Doctrine — the fraudulent concealment by
an agency of the State of New Jersey that Attorney General
Rabner and each successor over 14-years permitted the financial,
emotional, physical and spiritual rape of 201 families, born of
official corruption or criminal negligence, for the last 14-years.
They do not want to admit that "Ron" either lied to or conspired
with the DAG to falsely accuse me of "unjustly enriching' myself
with an $809,237 investment by Alfred Kryspin in Digital Gas
that never took place.

16
Therefore, I am just about the best candidate for denial of the
right to object to exaggerated creditor claims by abusing me with
an overextension of the applicability of the Rooker-Feldman
Doctrine.
I am asking this Court to recognize that the AGNJ, Judge
Kaplan, and Trustee Dobin have all set a dangerous precedent
that needs to be addressed by this Court. However, I want to
make one thing clear before I proceed. I am not seeking a
"backdoor" to overturning the Final Judgment and Order in state
court.5 What I am doing in this Supplemental Brief is underlining
that two separate damages have occurred. The first is that the
AGNJ knowingly, willingly, and maliciously overstated the
amount of their claim. The second is that they compounded the
damage by filing a $809,237 claim in bankruptcy court to
accomplish two separate, but interrelated, goals: 1) drive me into
Chapter 7, and 2) fraudulently conceal how they determined my
$809,237 claim for their October 10, 2006 complaint. They
continued seeking $809,237 in federal court after federal court
which violated 18 US.C. § 152(2)(3). Obviously, their proof of claim
is suspect, as much as the Robo-Signed or Counterfeited Deeds of
Trust which are used to strip American homeowners of their
property, but I will not cite that, since I do not want to provide the
Respondents with any reason to rewind and play their "she wants
to overturn a final state judgment" mantra: "Rooker-Feldman...".
Now for the evidence.
Obviously, the entire 3-year litigation was corrupted. It was poorly
administrated by an incompetent and insecure judge and the DAG and his
investigators threatened witnesses, altered evidence, and, in the end, the
DAG perjured himself at trial. There is no question of this.
5

17
E. The Unimpeachable Evidence
The following is a brief description of the evidence presented
in the Appendix. As I mentioned above, I have included a few new
items that I have found that are sufficient to demonstrate that I
never unjustly enriched myself in the amount of $809,237 as the
state continues to falsely allege in federal court. I have reserved
other evidence in case the AGNJ continues to violate the
Bankruptcy Code by not reducing the exaggerated amount of
their false claim. I include Mr. Kryspin's original record of his
transactions and a few excerpts of trial testimony that clearly
demonstrate the AGNJ referred to Kryspin when accusing me of
this $809,237 unjust enrichment
Appendix A
From the trial transcript, the DAG mentions the name "Ron"
Reckinger when the DAG at that point confirmed a $700,000
investment by Kryspin. What is laughable and sad about judge
asking whether Reckinger was around was that Reckinger fled
the United States to Spain and then Germany before being
arrested by Interpol and brought back to the United States to
provide evidence against Rumeal Robinson. The DAG knew this
but deflected the question by telling the judge that my husband
said that Levinson and Reckinger were "bad". Equally disturbing
is that the DAG indicated that Kryspin received little stock. In
fact, Reckinger, knowing that Kryspin received shares in Digital
Gas because it took over WESI a year after Wickline's death, sold
Kryspin on the idea of letting Levinson, Reckinger, Throne, and
Robinson use his shares obtained from the takeover for the
fraudulent loan at the federal bank. The DAG knew all of this,
but there was no turning back.

18
Appendix B
Alfred Kryspin's own record of his loans and investments.
His loan and investment record shows that he never invested
in Digital Gas. He invested $115,500 in an entirely separate
company called Wickline Energy Systems.
I was sued by AGNJ for unjustly enriching myself from a
purported Kryspin investment of $809,237 in Digital Gas that
never occurred. This alone shows that the $809,237 needs to be
"reduced". The AGNJ is deathly afraid of explaining their "error"
since the source of their information was "Ron" Reckinger, the
person named in the Grand Jury filing presented above.
Appendix C
I present the following letter, signed by Alfred Kryspin,
Brian Smith, and a witness. The letter not only evidences that
Kryspin invested in WESI but shows the fair and reasonable way
my husband treated him. Not only did my husband offer to
arrange to guarantee repayment of the loan, he provided him with
the legal basis to obtain a Summary Judgment in Superior Court
if he chose to file a complaint for non-payment or fraud. Kryspin
went on to invest over the next 12-months.
What my husband did was bend over backwards to make
sure that Kryspin would never have to be concerned about any
loan or investment made.
How many letters, providing an investor with a clear path to
Summary Judgment has any justice on this Court seen?

19
Appendix D
When Kryspin first met my husband for a presentation, he
found him working out of a home office with all rooms leaking
from a leaking roof. I was living in Lakewood at my mother's
home with the children for the preceding six (6) months.
Notwithstanding the condition of our house, Kryspin was
impressed with the Wickline Energy System and wanted to secure
the rights to operate the company in Poland. T
This is a memo and a letter sent by Kryspin a year later to
an attorney of a friend who he wanted to consider making an
investment on his recommendation. It is followed by his letter to
the potential investor. Both documents name the company he
invested in and why he invested. It was not Digital Gas.
Appendix E
From the trial transcript, the members of this Court can see
that Al Kryspin had a special interest in Wickline Energy
Systems. He wanted to bring Wickline Energy Systems to the
European market.
Kryspin had a special relationship with the family. He
worked on our house and we often invited him to dinner. Although
he wanted to be repaid the $67,778.26 that he lent to my husband
for the home repairs and supplies, it could not be considered an
"investment" and we would have paid him that back. He made a
$115,500 investment in Wickline Energy Systems and arranged
for a loan for Wickline. I imagine he would have received a fair
amount of stock for that and equity in the European company
which is what he really wanted.
My husband has indicated that Wickline would have used
Kryspin in Poland since he spoke the language.

20
Appendix F
From the trial transcript, the members of this Court can see
why Alfred Kryspin did not mention Digital Gas on his list of loans
and investments when he loaned my husband $67,778.26, invested
$115,500 in WESI, and arranged a $250,000 loan for Wickline.
The reason simple. Kryspin did not know that Digital Gas
even existed until over a year later.
The AGNJ knowingly and willingly filed a claim against me
for $809,237 in Bankruptcy Court after I filed my Chapter 13 on
December 11, 2017 - knowing that the victim himself provided the
trial court with sworn testimony invalidating their claim.
Kryspin did not know that Digital Gas existed when he loaned
my husband $67,778.26 and invested $115,500. The sum of those
amounts, if you want to stretch the truth and all evidence and
pretend that he "invested" in Digital Gas, is $183,278.26.
$183,278.26 is not $809,237!
If the state made a claim in Bankruptcy Court for
$183,278.26, I would have been converted back to either Chapter
11 or Chapter 13 and my daughters and I would be living at 409
St. Clair Avenue.
Appendix G
Part A of this Appendix is a letter sent from Kryspin's family
and friends in September 2005 indicating that they were all
defrauded by Reckinger. Contrary to the representations of fraud
against my husband by the AGNJ, my husband protected investors
in Wickline Energy Systems from a complete loss of their
investment after Wickline's death.

21
My husband's solution was to deploy Austin Marshall, J.D.,
P.E., G.G.P. to provide the technical expertise and connections to
run "Digital Energy & Farming", the name of Wickline's business
within Digital Gas.
This was a unique solution to protect Kryspin and other
WESI investors that was ignored by the DAG and the AGNJ.
This letter was provided to the DAG and directly to Attorney
General Stuart Rabner within the first few months after the
complaint the state filed against me in October 2006. Since
Reckinger was the source of the DAG's "unjust enrichment"
allegations, it should have given the DAG and Attorney General
cause for concern, cause them to finally do a proper due diligence
on Levinson and Reckinger. Instead, it was ignored. Three years
later at trial in 2009, the DAG continued this narrative in the
exchanges presented in these Appendices. In 2017, eleven years
later, the AGNJ was still fraudulently concealing the fact that
their $809,237 was "exaggerated" and needed to be "lowered" in
amount.
Part B of this Appendix follows. Unfortunately for Kryspin,
he was contacted by "Ron" behind my husband's back and gave his
Digital Gas shares up to be used as collateral by Reckinger and
Robinson for short term loans to fund their attempts to obtain
funding for "Harmony Cove", a resort in Jamaica. Kryspin let him
do this for a state in the hotel and casino. Once that deal fell
through, Kryspin's shares were probably sent to the Community
States Bank to support the illegal loans Levinson and Reckinger
encouraged Robinson to arrange for them. The trial excerpts
demonstrate that Kryspin gave his shares to Kryspin and that Mr.
Behm took his shares from Reckinger and made money — as
Kryspin testifies.

22
F.

Requested Relief

As I previously stated, I am not Exxon Mobil, a casino, or a
Trustee, and I am obviously self-represented.
If Certiorari is granted, the Attorney General of New Jersey
would more than likely seek to settle the matter to avoid the
public outcry questioning how many other hundreds or thousands
of innocent families they have purposely and maliciously
victimized and damaged. Also, it is quite possible that the Chief
Judge of the Third Circuit Bankruptcy Court might compel Judge
Kaplan to "correct" his "errors".
If this Court agrees that the Rooker-Feldman Doctrine was
abused and overextended in handling my objection to the amount
of the state's claim and my request for Additional Documents, and
directs me to substitute a Writ of Mandamus which will be
granted, I am only concerned with the final result. That can take
two forms:
Remand with an order awarding damages.
Remand with an order converting my Petition from Chapter
7 to either Chapter 11 or Chapter 13 with, if the state still refuses
to "reduce" the amount of their claim against my estate, an order
that an Adversary Complaint be supported by the Chief Judge
and a new panel trustee.
My formal objection came prior to the auction on my home
and its eventual sale. If the judge and trustee had no
overextended Rooker-Feldman prior to and after the auction, I
would be in my home today.

23
In the end, justice and remediation of damage would be the
return of my home with a significant damage award to be paid by
the State of New Jersey, not just for this filing of Chapter 13, but
for their fraudulent concealment on an ongoing basis each time
over the last 10-years they violated 18 US.C. § 152(2)(3) and other
federal laws. If the trustee wants more money, for herself or the
ZIP CODE Bidder that won her fraudulent auction, or anyone else
he fraudulently conveyed it to, get it from the State of New
Jersey.
CONCLUSION
For the foregoing reasons and those set forth in the petition
and reply, the Court should grant the petition for certiorari.
Thanks for your patience.

Respectfully submitted,

la
Appendix A
DAG States Amount Invested by Kryspin
Rryspin-cross/Nenimut
Frye

14

MI"ROLD: I am octxtally not sure exaet
that attorney in.
1111;
titto if;IFS. Rottinger? In etc
around?
MP. CgROlat fire liecItinger vms someone
e6spekatet3 for niaital
shcirtiy
underatonang
that be vas *stociatet efith 01,94tal C shortly vitt my
be n
end. lit. COM% des thAt b! end the ,
*weir fly, aarry riewillrfon, tire, you know, bad peageo
tssentially. I duet law. what rel*wslics it really bat;
t*14r. ItryNpin 91.9ing, aft. Math $700,000 and only settling
* **all amount of /Mick in return. X don't necessarily
set the relovance.
Kryspin States Amount He Invested

Amount Kryspin Claims to Be Owed is Exactly the State's Initial Claim

Kryspin,-direct
1
2
3
4
7

81

after that?
A No:
And tiated on your calculations how ttitldh money
,f3
had 1,94-given to Dlr. smith as an invettment 3,11 either
NiekUrie or Digital. Gas?
It
*fall, the monies owed to me that .1 had .rinder's tees
rnvo1ved4 NI owed me amok+. 800,000 _

2a
Appendix B

NIoneyXefOcto:1304.9.: .ngth for WEgf Investment
. q!PO.IWOIY.kr

.Paid 6S.

pitt..
...,,

'4s#010.1t:.

,isOt

Se3miaurKopt

May4;2001
-1,41Y. -0;064.
JOY20,100.
Jiih,14110•01 :, .
Aititiii46,..4001
Aug
2001
Aitgoi,t.*Iiii*,
Ags#:,.2i 106V••
4416441;:•2061.,...
Si*eiiiliti211';101..
$elitomber,I.6.'2061.;
Otlobiii.464001
oetisiiik:•
: 0400:
Wiinillei00.2001,..
NO ,,ei015ie..204001..
NOvernber..22,.204:
Ont;ethber.22,100 :
Oi*iiiiivgi.l0.:•2061 •
beCOMbee3,2001
53920t11..
becember 6,2001'
beeiniber .19.2001
Deeetnbcr 24, 2001
gAlygmpu.r.,
iluiyil wool.
StiTERIalrf:
•
ry
janli'aii.31. 2601
*ninety...5..2002
Janti:. Ity ,24,. 2602
Maitlilq460i• '
h4tiiili22,4602

0030:
tiii.10.
AiOliiiir
..0.4615010:.
030030:
t4X0100,
't4000iC
$600.00'
%SIMI.,
$1036.53,
II2U1O ...
A200:01.:
iiiiikdO'..
Si 00000

.• - 2910
2931
4937
1939
940
, 2942
2943
2953:
.2955
.2463::
2965
1969 .
2974
29762017.
2982:
49/13 .
2985
2987
29891
2993
143
.344
:•14s
Is61:
2998s,
:1004i
.1023
3027
Sits.:
.3033;.
'302i.:
....Si*
.:40.*
;Nor;o:
4061 •
=042.-:
1,566.
3063.
1066::
1061.
4668
.4660
307(
'..3014
' Ws •

:.2
".3'..
.1.500.

sen.itet,si
Cash(sewRitiair)
cimi•(I0rixtp)
DriaiiSnafth (loan)
J., Lateen (Gcn Contractor)
-Friiiiic Leon (loan DS)
OaiSh'04'it las)
Lm
'.-. .eticearitimnications (TV BS)
ItaiiiP46i.(BS) .
Yfthudillidi [Li (BS) •
Ciiii (6$)
a 3.itoiitiiiiii (OS)
komt•..tkpk4;(1.3S)
COtt(US)
Cash (US)•
laekeiLuiiiikr
L'&. H Supply
.C.aii (BS)
P-01 oy.e,..1 invest.)
'Cash (1-3S)
'Ketil3eini4
Home bcriot (BS)
. "_. !.p.-,-tix-701)
Cligh (1.Ke...V1 invest*
h5h:CW')..1.1ateM3
ActeoneeatliiittrOill0
AIM Ely1Y0100.
Home Depot (US)
Bonin !liiii!ii (OS).
.
Splint Pkone.13111 . (113S)

roi*o..iiiit(I4$)

Ai:v.i! Phoii.e.p.111(BS)Pild. by Phone
"
40'.04-hiiiplasy • • "
tlimile.15ificii (BS)
'ti0111:1t)1
ii.48 ..piii.iii:(US):
.
Cif 1 (Us).
Asial,a'seornvei
ittatiarci tiema
'Cli+41:01s)
Cash (U8)
C.O0i:.034
-42ililf l9S) .
iCeect$:t(161.
.gliVi1(814:440).
40.10:1401*.
.14.00iii1iiiejqii**)
tioinnipii4 (8s) .
YO 1cTyFp
. 4; (ionnIc113S)•
'•Ctiol.(BS) ..
•;csio: tits)
:Siwiiikroso
Sinini..PCS:(BS)
Sprint' PCS (ElS) :
Sptitti kS.(0S).:
sii,i,tik I iiiict.cit (11S)
J1C Pi rin*Cle
.
SO.\ .....nterr:
tit#ne Dtiiir..
Sprint Plierie 13111
.1%Aereedesileiti

A01,4002:1 •
Kii.reit*•06±..,;
Apn125,400i'
mn-y Eii":tdoi•
June 1., 2002
NI-v.24;7462:
June 4; 2002
1.:4,a662
igiit 4.: 2002
1404;166i
)00.i:2062
111605;1002
1upe.6.2002
lime? 2002
Jii0.49:.2002
filife :106i:
i Lay) :Iticir •
May29Aotri:
10y...4:1001kiv•t 400
.. . .
Febvnitry2l, 200 1.
January 20001
Fcbrtiar3;21,,2001
Jantiary 31:2001
July 23 2001
July R, 2001
JA 1mmHnan irflitli I vi'...g.1.).111..,.1S1lti200e2 .
.
. Februery.24. 2003

lk loan for 1AS
Finders Fe'e, from Investors JiS-tbrl below
11044eFindeti Fee. from Airline Pilot
'remember how much he'Eeve you. 'Hilt* S2
oi

itiii804.400

$3.000:
58845
:$492 ‘iii •
S1.000.00,
VtlklIttiq
:i50ii:66.
5100000
.sM.K.00..•

sva.uo:oo
. i•jra04:
$52;83',
• .00:60;
SI000'
$3000 ó'l)
S7.04
. 90:.

.ilit6y.

S78233
540.60
•to:045'.
S2.000 00
Si od.0q,
sibeitio.q
$550)14
$201 .40
52J5.06.00:
05:000..00y
.$3
s,00p.o.o
$2300.00'
$06b0 •
52000.00.
5141.374
tsti.gii..
Xiiiiitoo
t70000.0
1156.00...:
523.00
5567:33,
SI 1511o.
.S7999,
t24.61.06'
,O$K97..

SOA

4014_
44i:di.
$8338:54,.
.0•;$0160.
$30
.:- .... .:00.00
• ..... .

12500**
53044000

S2,000.00
S495,718.26

3a
Appendix C

fias::.
4994 ctaik Avenue
:67762
New.
P0)446;18;62'
•

=Y;ou will. cxtcnd a loan of S14 440 tome for use as a asr mor.c 'or work to fi

: thine Energy sy stems. tic. C VLSI p andfor ottterretr ed buus nesspu isea.

,b , Angnsi 15 2001 and extend you a futih
M4003,0fitor
.
ated lc?*
*0tiotd•Neifgo--06
.vontidenatiOn0.5xolog4s41•4-40,1ta
9r
the
pgyp.
4
K.413)7CBB:Edoiri,•o.odop4*mp•r*nt.;,7pygr,
googDfaine;by•2tvtiseitltieW,iiitt*.
. .
"•
rdidtiriii*OV*ti*
,
***:01#TYPiii0if&;011040402;10•Wai
-1(547-,1:931370151.1'1,7M1' „Oil P.'
Sof 4iiei
handles
.".
Toast
womb or`ut trl~ Au test
4

st

#Y,7411..:elAttti5.7
AS a farther guarant ee for yott, l grave given.:$!1000t- of fnee>,tradmg Stock in a US company. !In.
fo. # 1010W1)49,;19
:,1*-9.1'*Vcit614t6t$10ii:
10fin*. c.igCclt51iiiilii4*41* - g**::7q.k.i
4iiii iiiii0ed.A
--:)(S74tOir410: f.'' i
.eiiiiii;*:**ris6f....*ei-dii&tri,i34..* ' '.,A4i*V.)*4
lilitii8diiiiisi4d f....d8ii will act-•iiiiiiiiiid ice and- ii1l liquidate the.ii'beginning 1.6n
iii;full on ihe`Ioan_:-:::
will txtft
S "0
4pzeiptitintiyenr:
;-'00013. P.
1.1*4
P?1,1T-IP?qi 9!.!.. :
„.
111#0ile:jj5f theffill•qt POIhWkfi#0,•00.11PAItttiPt0t**1..;011dYOPAY'ACI'4VP4v11 .
iepa) E,iitl, then l gill have until August 31 240110 arr

-,, •

payment to you by some o her means afdi er which yon.:

:

ailin *fit ,lhianaiketf,it

and l.:i~ill ircitcoitithtyor;siteintwsinotiaiffiii.:Siirriffiiiy0aphdittliittiid:tooy*ht..ot "oit'.$111009;

•
4*

tkii•vtilifi6lirryj'emi
dtpfs;09:4*000fz

toss`:

.

(*' ::

s6 •

4a
Appendix D
To: Robert Wasserman
Hello
a friend of Ms. Queen's suggested that I present the
investment to her...
I am not an agent...I have invested approximately
$400,000 of my own money.
I am 70 years old and an engineer who has examined the
business and determined its potential value.
I have placed my son in for $30,000.
I have placed my daughter in for $20,000.
Give me your or Ms. Queen's fax number and I will send
up some reading material.
The company is due to go public by reverse merger this
month.
I have been allowed to invest at $1.00 because:
I have become friendly with the family of one of the
people executing the reverse merger and who is
financing the deal;
I promised to be part of his sales and marketing effort
from the technical side as he moves across the US and
Canada lining up contracts to build these Energy &
Farming Centers
I also indicated that I would be willing to assist them in
setting up manufacturing facilities in Poland through
my contacts there.

5a
The company is offering 400,000 shares of "144 stock" at
$2.50, primarily to industry contacts of the founder. This
will be finished on or by July 15m.
When that is completed, the company will offer 3 million
"144 shares" in the $5.00 -10.00 range after going public.
Prior to being notified that the company was executing
the $2.50 private placement, I asked for 300,000 shares to
be placed with family and friends at $1.00.
Since then I have placed 50,000 shares with my two
children as mentioned above.
There are 250,000 shares left and after July 5th, they will
be withdrawn from my control as the company prepares
to go public.
Ms. Queen will be treated the same as I. She will receive
a letter indicating that she can have her investment
returned with 5% interest by requesting it at the end of
sixty (60) days.
In the first weeks of trading, a one million shares block
with be sold to establish a wider public ownership. The
anticipated price will be in the $6.00-7.50 range. From
these proceeds I will receive 128% of the amount I
invested, so that I can receive my investment back
without selling shares. The tax on receiving $400,000
back will be approximately 28%.
Your client will receive the same treatment as I.
I will make weekly reports to Ms. Queen, informing her
of progress and updating her on events as they unfold.

6a

Alfred ICryspin
2157 Route 35
Sea Girt New jersey 08750
(732) 895.4278
Memo

July 3, 2002
To: Barbara Queen
I would like to share an investment opportunity with
you. I personally know all of the individuals involved
and have done all kinds of due diligence on every
aspect of it.
As a result, I have invested $500,000 in the company
and two of my children $30,000 and $20,000
respectively.
The company, Wickline Energy Systems, is a
technical, sales and marketing company staffed by a
proven team of experts whose goal is to rapidly
develop and build timely, efficient and extremely
profitable clean energy, food and water production
plants across the US.
Since I am an engineer and have become close
personally with one of the principals and his wife
and two young children over the last year, I have

7a

worked myself into a position of working directly
with him to open new plants across the United
States, then Canada, then on a worldwide basis. In
addition, I have contacts in Poland that I can utilize
to expand the manufacturing capacity for the
gasifier-combustor.
This unique position will enable me to keep you
updated on a weekly or otherwise regular basis. In
essence, you will be treated the same as I treat my
son and daughter who have invested.
Former coal producing areas across the US each have
hundreds of millions of tons of waste coal. In
addition to normal municipal waste, wood waste,
tires and other difficult substances with BTU value,
the company will burn this waste coal with its
breakthrough system. The result is that electricity
and the thermal energy it needs to conduct its
farming operations is generated, all with no harm to
the environment For instance, emissions like carbon
dioxide are captured and processed into dry ice.
As part of the process of accessing this waste coal, in
part done privately and in part through local and
state governments, the company has and will
continue to offer to remediate or "reclaim" land that
has been stripped of coal in the past In addition, the
company is willing to reinvest up to 5% of its net

8a

income in the communities it operates within, many
of which are rapidly becoming ghost towns. This
humanitarian approach endears me personally to the
company as much as the technical part stimulates
me as an engineer.
The fact that the company is doing "all debt"
financing for its projects means that substantially all
of its net income will be paid out as dividends. As
someone older than you, this is the most attractive
feature of the investment, although, as the shares
rise over the next several years, I may sell up to half
of the position in each of the up to 12 public
companies that will emanate from this in the US,
Canada, Asia and Europe.
All shareholders in my position will receive 128% of
their investment returned in the first month of
trading. This means that your investment will be
returned early in the game. If you are in this, I will
advise you when I decide to sell, so that you may
avail yourself of my judgment in the matter of
cashing out.
Of the 12 companies, the first three in the US will be
out by September 30th of this year. That will be the
Northeast, Southeast and Midwest regions of the US.
The first public company will be out later this month,
the second in August and the third in September.

9a

Please refer to the map I provide to get a general
idea of the split up of the company by regions. On the
map #1-3 will constitute the Northeast Region and
the rest are noted as #4-10. In essence, the company
is doing what AT&T did with the "Baby Bells" only up
front.
This is an exciting and meaningful investment
I hope you share the excitement of this situation with
me.
Regards,

Al Kryspin

10a
Appendix E
A Few Reasons Why Kryspin Wanted to Invest in WEST
„. „ nudiroes:

0,004 osyvstrt Or* 4414

r...r

..
Al-04
t, **Mk
..

SVS

tt yorAhlet
31
21

*0

gtti thXt OU
X. tali*" AO. wlvoosihAk,

thiM,4
Arier.yoz
41#4412,,P1..#'
.itiouott.ft this
Ar4.4'1
,40.,hcms
1414 ion. y ou- suitd t6VO.Latt.'40
1. . 411
:
ote9. ylo-ovo to tit:tor 'tht, hottifet
'
•

410'4: 4rPrik1ittt

I
,
frAK*1 Aii411-1621/t.
el* 4001into Z*on aft
Are
It' se :th-ty -*** they vOuld edtie'reitgieeer:,
144

oar.„

yoo tJmt

eret
'1,
-Art 7

Bilk:

g sue-

frOregled.ein
ywcitid sc

I w

Ivnion”.11,091M141eit.

***#•aliopi.:
to wealt for theny,.
13440e--aiY0
lIP
.44A-,
tt C

.048diter:laf Izot,

Eut0000n

70

X

yeqftek. to go, to

11a
Appendix F
Kryspin Never Heard of Digital Gas
Until After Wickline Died on December 26, 2003
trY040-dirert
2'
3
4
67
5

17
18
1$
20
21
2a
23
24
25

A

Yoe, those are my cheek =hers.
And then I reramose the second column wou/d be
Who the amok was made et:r too
Yec.

•

And you creemi flqa list,. riot?
Yes, I did. Claymon Vito, that's a limo service
that be used .e lotOba ezd you recall Clayton Dino specgically?
A
Yeah, 1 re.mezhor that.
And -A lot of, soca of the ranee 1 don't remember heranste
A
they were workers worbit's c the house for' him and he
lideded to nay then off, so 2 ended up paying then off.
Vow. tia monole..ti you were giving him 0100,Y,
.'fir were you atelme tin all ahfs money?
It.'
«me sling ea gst stock in Witkline.
St
rat Tov ever. scet >stock, 171 Wickline?
no,
A
Sow str4a
A
Well, larer
die4. I don't remember
what isam be died .
Sit he patted awry and 1" never
Met: him. -21c1-.„
like a hell of a guy. '
Ent tagenstsg; -sounded like a hen of a guy
because of Wham ft. Etech told you?
Yom:, well be het brze -- ,fought in world War 21.
A

14"min-direct
1
2
8
8
V
Id
Ott
12

Xt
le
LO
20
2.
22
23.
24
2S

11

72

Re was en airplant pilot, f9r. wickline and he allot down a
Getrian plane. You Can't be bed .if you did that.
Poilowina Alt. Wickline,e death, what happened
to the investment in Witkline2
A
Brian became president. 1 wan told by Brien that be
°Stied the company now. But be said be was going to go to
Digital. Gm; tiftr44 r never heed Of Digital as at that tira4
and until he brought it o and then be said, Ws on. the
market eiready.:- so I said, 0, you Imow. 00 Z. would be

getting mYOhpOlt in Digital Oak-.
SO aithogok you inVtoted in Wickline. Mk. Smith
then put you int* Digital Gas, is that right?
A
Yen,
0'
And -A
We.1.1i ho said rfteld,get the. of odc:
sisal leeking, ZdAbit 1u220, fi.. wertiare
to the second. page. maybe I could aaeint you, ltmet4ag
at
the cule
•,astAil.., right here.
A
Yeti.
Mutt lie that Otount, please?
$213.2784sIn that YOUrratellection of how much you vivo
hr. Smith?
A
Actually Z think 2 gave him more: 1. coe't reernber
all the times I -- like one tins we nmre. in the car with

12a

crivoul

kra
lct-

070?-ou .v.?-itAgn 9.0fepw.vaitt**twir toa;wisviiw
44141+4= hiatio.rie.q.PhiMsiAhP KA44i0,3*(-604:b41‘0C

OWI-11**V11

1110711011

4:11Tt ilmq*

Aral&

kg.Pen_ettu

tdWi
l :E;:.:W 001

0,40 t,84-*Oktif
r
1:1;kt".46041**:04:

e

rilda)d;

11

13a
Appendix G
Part 1: A Memo to Brian Smith from Kryspin's Family and Friends
Confirming that Reckinger Defrauded Them and Kryspin
What makes Judge Kaplaies dela ersatfon -cif Lynn Smith is sentgame vito ,defrauded. busidieds
CW211

more abusive is die fact that ilud4e Kaplan has ta his licSeSSEJSZI a letter from clients

gtaEcd Mat

he had defrauded them of tbeir Digits" Gas got* nut rue:
1101,711841770)AY,:t.u.!!ILMLIFIR
'Ilk DEAN SPOTII
l RS ARIES-1111IMA REFILEET PARIS

mer vitiu

tittiLk IhniY NFatioor rge ousniTeAnnwfts tutrvet,N V434,
RODERT PARIS AND ME REGARDM CUR STEM IIOLOVO TIFI riarrAL DAS
INCADVID).
THE REASON FOR ITIE LETTER WAS 'MAT WE WERE UNTIMIFORIAIME
WILD rt,i/AS1IVIS IIIAT RON ILI)MMER MAK pOSS1,RNT,NO- 51..0,1R
rinuTAIMANCTS WIIlf i3iiyj, 1111 APVIStO IE. 111AT VE'V
FVOT
COMPANY fld TETE RIORIEHRECT/ON AND IIERTEIERMOILE THAT air. %As, S MIERD
Y01,1 Uf VIM DIALS AND ¶t 1U STRP. N Erto.co,Tmq
ETADCLNES MADE PAlusAria taisUEE oP ii u
OFTILESTOCX:
IS TRIER EAFXIN YMT11E- DEMAND LEITER.
I WAS OVEN A DIGITAL OAS STS: CERTIFICATE ITV REMVOEFL DOS
PAM §4*Icliiimtliftiodiprxr ipPlubp plEAR FS, YOU-liAVt, VilOVIDED WWI
ITVIDOMIT EMT 371D PORES WERIT ACTUALLY T'ZIND wELI. ragimr,
SEPTEIMER. 213.94 AND TEIAT ,PRIM) LASTSEFTUIDER 7 6i CAVE EFIESDARES
5[13CRIISMWR AITITz Ib Slitti.Ob Val Atitrirk iKiiirjetwo RIMY HR. WAIt A
TRUSIEE MIA!. }DIVS FIN AND Trim-Jut SAID Fit wOUID rieuvrix IIIS ANDOIR
SETARES 1 L. DO RIEILIOIDIM VDU 011E43 ME AROUND MAT TIME
11 TAT TIM 2511ARZ ATT:PE itirecu praffixttito
PitistrourY,
ITtu iiMI`SPINS. OUT 1 NIVEA RDEXIVEn. TI MM.
NOW THAT WE SEE Tim %rum rir-Tijigt COWL
-REM IM:C1141,46-1-IfE
INTEITION REDARDIND SCUM 'EXEMOL CT TEE PROJECIS OF DIGITAL DAS,
wr. It43 N (ft
To fp. si.5s0C44,111* UM.
SitigkrgiN gialOrti.VS
TUE RELATI UNSHIP v,Tratirronvan.ANTi AL ERESPIN.
DlEREPORIL CASED 43;s: 11! IN1'OU/161XV. VIA EWW1,5 AND
CONVERSATIONS BETWEEN LTS OVER 111E FAST SEVERAL DAYS, PLEASE ME
AD1,1F.F11 THAI- Alt '1311$ IOC ItfOlifIT ic!•1 t fittI-Lit pARM
El
RETIM A_ITIRRTRA Orme; AND MN 4.-ilivaNkt TIT rsinwArzo
>;i tAT
WAS SENTED YOULAST
TEE Will ALSO FOLLOW MA
SAO 4fl IT MIMIC 5131. OWSU1 RECEIVE
CERTIFICATES FROM MR_ LECREMER.
TORI 3IA,VE ANY QUESTRIINS PLEASE COXIACT HE VIA D4AARAIR (RH)

ZW1090114

itAin OM) 3 X-Tro,

SINEI) ELY,,
0 fAIELES DEM
ROBERT PARIS
(SIONEDITLECIRVACALLY)

a ilINESIDIS

a ROD Reekinger

14a
Part 2: Reckinger Ended Up Using Kryspin's Stock as Collateral for
the Illegal Loans at the Federal Bank
--- The "Lawyer" was Either Levinson or Throne
Kryspin-Orot,s/Heninanil

,100

stock? It was only a year or two ago you saidl.
2
A
Well, he had come up and we pet at the After
Restaurant. Ron Reckinger drove Brian up and I !e.Tap- there
3
1
And be told me how mudh, he was going to give me,
51
Q
Who Brian or
6 A Brian.
7
Okay, who is ROn Recking00 ITho $4:0 ,Ron
Q
a'
Reckinger?
Ile was the man that r knew that 'X had introduced to
A
9
Brian and Brian hail businef3 .5' dealings 'with him.
10
11
Q
Well, when -the stock was given to you, was it
12
given to ,you or was it ;given to Ron :Reckinger?
13
A
I1. was given to me,
14
It. was given to y, , *,pdvougmatir got the
15
share certificates.
Yes.
A
16
17
Okay and ghat do you- do ViO 019 stotla PLO
18
you ever sell it.?
A
19
No, I gave it to Ron ReCkinger.
20
'What did you give it to Ron Reckinger foz?
21
He was my, I don't know What you call it, he bad my
A
22
power of attorney.
had problems. I became legally
23
couldn't drive My ,oax- nyThOre. So he Was
bolding it for me _
24
How long .have you known Ron Reckinger?
25

'Kryspin-cross/Neumann
1
2
3
4
S
6

16
17
18
23.
22
23
24
25

111

call it, a talk. They all came down the shot and Brian
talked to them about -- .1 think he talked about not
Digital. Gas but the other one. Hr.
you know,, the
original one.
THE COURT: ilickler or Wink soMething.
THE winiEssg Yeah, the guy from Pennsylvania,
Gettyabuiv.
THE COURT: Wait a minute. You told us this
morning- it was Wickline?
THE WITNESS: Wickline.
THE :COURT: WiCkline,okay
THE -WIIIIESS:
scirky
tilE'COURT: Iii:AVS all right, no problem.
sc
TeS.
()
And
Digital Gas?
A

A

DisitAl

BearilinVIEJ sonie- Money?

ilia. h.', lowest money in Nickline or in

GP

Okay

h d
lift his shares, didn't he?

A

Yet .

A

Yes.

A

And he aCtually 7ai-de money, cli_dre4't5 he?.
He actually made ta:),..ey, the only one.

And he actually SOId them, didiVp.: 1740

15a
Rryspin-dr s/Peumann

is

1
A1
13

14
1

17
19
20
21
22
23
24
25

Otay„, we] l you gave Year ShAYOS to -- What was
Q
hiS naive?"
Ron.
A "
R4PkihgerP
PkwYTAB COURT: "'A not Sure hei Oft them.
A
YOphi I did.W.t give theM.
•TBy. COURT: 7 think he gave possession of thet.
.
I think yOUTre right thtfe, But I don't think he turned:
over ownership to theM.
R. NEUMANN.: I didn't mean to imply that he
had a 00hatiVe intent here.
TABCOUBT.„-. Okay, he did give theM possession
Of theft' thoughAR. =MANN: He gave them possession.
AY ya. VEUMANDT:
So do you remember that at ohe.point you got
.-.Q
00,-000 of the. shares: hat
A
4:00,090,
You got 40D,ODD back?
O
A
YOd- Mhen I got 'them back, Brian-had to pay 10D,000
for 1C,, that'S what. he told me.
Right, because Redkinger had pledged them for a
Q
loan?
A
SOtethin4 like that,
And that ioanhad nothing, no benefit; to you,
0

Rryapin cross/Neumann

12
1.3
14
15
1
17
18
18
20
23
22

a

24!

112

ila

yol; didn't get any of the loan 1pfdiceetiS?
A
No,. no, no.
That was Reckinger using Your :stock to get
Q
money fo±' Reckingcr's. PurPOses, COrredt?
YesA,
Okay. After you ;cot the shares back then
(2
didn't: you give them to Reckihger again?
A
Yth, he has Tr,-s power of attorneySo, this is the ouy that took- yoUr< shares„ used
Q
'.them as collateral for bie own purpoteS.
A
I don't know if it was fot his pimpogeb.
0
It wasn't for your purposes?
I wagn't for mine. That I could attest to.
A
Q
shakes
okay, okay. 4tian was able to
Pa0fOr You thouc?
A
'res,: he told me he paid $1-00,000 to get them back.
::rd you got the:shares Back?
Q
A
.1-$S„,. I cor.- the shares bask,
,r,nc or.ce !,:
,Oil cot the Shares -- they actually
Q
got Mailed to
aidh7t they, PedEx?
Could b,-A
u.-..,...., so once you saa your shares, do you
v
rememher wha
wps?
-,-S ago.
A douolt oz
Was it 'oefore or after- Beam sold his,Shares?
Q

16a
RrYsPincr910P1.174111.1
thsnli it- w-A.k
2

3
6

9
10
11

12

13
14
15
16
17

18

19

20
21
22
23
24
25

T

okay, Ito you know when. you got them back, --,
nowe after yon not them b&tk, then meckinger .got them
again, didn't he?
Yes-.
jN
And he used theM for some otrher kind ,of
investment, oldh!L he?
I don't. know.
A
You .donfit knOw- Did you ever seethem again
af4er that, thete Shares?
Once ot. twice.. BUt.
A
looking :or ham now:,
'Well, did Reekingertet them hack. to you?
A
MONO. so you did get shares, Reekinger - You.
gave the,haea to ReCkinger, lie hocked them for a loan
ar .something.
Whatever.
A.
Brian was able to getthose sharesbeek:Ifor you
and then you.. gave them back to Reekinger and you
4911°t,baVe them. Cdtreet?. Mo. you. know-how' much team-made
vven
1.olOnis shares?
A
wail, he taily
imbed the least amount. SO he
couidLr t have made too much,
Do you knowhow much be sold what the sale
pride was per Share?

Keyapin-redire=

I

11
11
1
1

14
1
1.7

19
20
21
22
23
24
25

14

124

RE IRECT E MrgAtION BY MR. GEROLD,
Mr. XrYsPin, Yo9 were sPeak*ng about -- you had
Q
just, spoken about Mr. Reckinger and a certain transaction
with a bank, do you recall talking about that with Mr
Neumann:?
h
1 h Mr. maw
With the attorney who was just aSkimg you
o
questions?
A
Yeah.
Okay and regarding that transaCtiOn tetWean_mr.
Q
Reckinger and, the bank, where did : you get y4Ar
information regardingthat transaction?
A
Well, When he did what?
You were speaking about you gave yonr shares of
Q
stock to Mr. Reekinger, right?
Yes.
A
And. whnt'dtekkg. genkingar at,with Ulnae Shared
0
of stock?
I thought he was:ha:ding them...
A
Okay, and -O
Edon't know about the deals ha was making.
A
Did mr. Smith ever tell you, about the deals Mr.
0
Reckinger was making-with your stock?
A
No, not really: Not that 1 could recollect:.
0
And

